               ‐ 

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Audit of American Recovery
                     and Reinvestment Act-Funded
                     Cooperative Agreement
                     2S-96099601 Awarded to the
                     Idaho Department of
                     Environmental Quality
                     Report No. 13-R-0206                    March 28, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Abbreviations

ARRA          American Recovery and Reinvestment Act of 2009
CA            Cooperative Agreement
CFR           Code of Federal Regulations
CIPD          Certification of Independent Price Determination
EPA           U.S. Environmental Protection Agency
IDEQ          Idaho Department of Environmental Quality
IPA           Independent Public Accounting
RFQ           Request for Quotes




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-R-0206
                                                                                                         March 28, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Audit of American Recovery and Reinvestment Act-
                                    Funded Cooperative Agreement 2S-96099601 Awarded
The U.S. Environmental
Protection Agency awarded           to the Idaho Department of Environmental Quality
American Recovery and
Reinvestment Act Cooperative         What the IPA Auditors Found
Agreement 2S-96099601 to the
Idaho Department of                 Ollie Green & Company, the IPA firm hired by the OIG to conduct the audit, found
Environmental Quality. The          that IDEQ complied with Idaho’s state procurement policies and procedures, as
Office of Inspector General         required by 40 CFR §35.6550(a), which referenced 40 CFR §31.36(a). The IPA
wanted to determine whether         contractor also found substantial compliance with 40 CFR Part 35 Subpart O.
IDEQ’s procurements and use         However, the IPA contractor found that IDEQ did not require its contractors to
of force account under the          include Certification of Independent Price Determination language in its bid
cooperative agreement               proposals as required by 40 CFR §35.6550(b)(3). The IPA contractor also found
complied with Code of Federal       that IDEQ did not require its contractors to have accident and catastrophic loss
Regulations requirements            insurance coverage as required by 40 CFR §35.6590(b). Finally, the IPA
under 40 CFR Part 35                contractor found that IDEQ did not require its contractors to retain its records for
Subpart O, and whether the          10 years after submitting its final federal financial status report as required by
objectives of the cooperative       40 CFR §35.6705.
agreement were met. To do so,
the OIG contracted with Ollie       The IPA contractor is responsible for the content of the audit report. The OIG
Green & Company, an                 performed the procedures necessary to obtain reasonable assurance about the
Independent Public Accounting       IPA’s independence, objectivity, qualifications, technical approach and audit
firm, to audit the agreement.       results.

This report addressed the            Recommendations and Corrective Actions
following EPA Goals and
Cross-Cutting Strategies:
                                    The IPA contractor’s report recommends that the Region 10 regional
                                    administrator require IDEQ to review and gain an understanding of the
  Cleaning up communities          requirements of 40 CFR §35.6550(b)(3) and ensure that all current and future bid
   and advancing sustainable        proposals contain CIPD language. The report also recommends that the regional
   development.                     administrator require IDEQ to ensure that all contracts issued under this
                                    cooperative agreement include a 10-year record retention period as required by
                                    40 CFR §35.6705. The report also recommends that the regional administrator
                                    require IDEQ to ensure that current and future contractors are covered by
                                    accident and catastrophic loss insurance as required by 40 CFR §35.6590(b). In
                                    addition, the report recommends that the regional administrator require IDEQ to
                                    update its policies and procedures to ensure that they address CIPD, 10-year
                                    record retention, and accident and catastrophic loss insurance requirements.
For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.   IDEQ agreed with three of the four findings but did not directly address the
                                    recommendations in its draft report response. IDEQ has updated its procurement
The full report is at:              manual to address the CIPD and record retention requirements. Region 10 had
www.epa.gov/oig/reports/2013/       no objections to the findings and agrees that IDEQ needs to address the
20130328-13-R-0206.pdf              recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                         March 28, 2013

MEMORANDUM


SUBJECT:	 Audit of American Recovery and Reinvestment Act-Funded
          Cooperative Agreement 2S-96099601 Awarded to the
          Idaho Department of Environmental Quality
          Report No. 13-R-0206


FROM:	         Arthur A. Elkins Jr.


TO:	           Dennis McLerran, Regional Administrator
               Region 10


This memorandum transmits the final report for the audit of American Recovery and
Reinvestment Act cooperative agreement 2S-96099601 awarded to the Idaho Department of
Environmental Quality.

The independent public accounting firm Ollie Green & Company conducted this audit on behalf
of the Office of Inspector General. The audit was required to be conducted in accordance with
Government Auditing Standards, issued by the comptroller general of the United States. The IPA
firm is responsible for the audit report and the conclusions expressed in that report. The OIG
performed the procedures necessary to obtain a reasonable assurance about the IPA’s
independence, objectivity, qualifications, technical approach and audit results in order to accept
the conclusions and recommendations.

A status of recommendations table is also provided at the end of this report that summarizes the
findings which the IPA firm has identified and the corrective actions it recommends. The
recommendations represent the opinion of the IPA and the OIG and do not necessarily represent
the final position of the U.S. Environmental Protection Agency. EPA managers, in accordance
with established audit resolution procedures, will make final determination on matters in this
report.
Action Required

In accordance with EPA Manual 2750, you are required to provide your final management
decision to us within 180 days, or by September 24, 2013. To expedite the resolution process,
please also email an electronic version of your management decision to adachi.robert@epa.gov.

Your response will be posted on the OIG’s public website, along with our memorandum
commenting on your response. Your response should be provided as an Adobe PDF file that
complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the
public; if your response contains such data, you should identify the data for redaction or removal.
We have no objection to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
assistant inspector general for audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Robert Adachi, product line director, at (415) 947-4537 or adachi.robert@epa.gov.
        Audit of American Recovery and 

     Reinvestment Act Funded Cooperative 

Agreement No. 2S-96099601 Awarded to the Idaho 

      Department of Environmental Quality 

October 29, 2012


Mr. Robert Adachi, Director of Forensic Audits
U.S. Environmental Protection Agency
Office of Inspector General
San Francisco, CA 94105

Mr. Adachi:

Please find attached a copy of the final audit report of our Recovery Act audit of
Cooperative Agreement No. 2S-9609960 awarded to Idaho Department of
Environmental Quality (IDEQ) on July 2, 2009. Our audit was conducted in
accordance with the terms and conditions of Contract No. EP-G12H-00376
dated April 2, 2012 and 2011 Revised Government Auditing Standards.

We appreciate the opportunity to have worked with the U.S Environmental
Protection Agency, Office of Inspector General. Please contact me with any
questions you may have.


Sincerely,




Ollie Green, MBA, CPA
Managing Partner
Audit of American Recovery and Reinvestment Act                                                                                13-R-0206
Cooperative Agreement 2S-96099601 Awarded to the
Idaho Department of Environmental Quality


                                      Table of Contents 

   Introduction .................................................................................................................          1
	

        Purpose...................................................................................................................     1

        Background .............................................................................................................       1

        Scope and Methodology .........................................................................................                1
	

   Results of the Audit ....................................................................................................           3
	

        Procurement ............................................................................................................           3

            IDEQ Did Not Require Contractors to Include Certification of Independent 

               Price Determination Language in Their Bid Proposals ...............................                                         4

            IDEQ Contracts Did Not Require a 10 Year Records Retention Period ..........                                                   4

            IDEQ Did Not Require Contractors to Have Accident and Catastrophic 

               Insurance Coverage ...................................................................................                      5


        Force Account Activity .............................................................................................               6


        Cooperative Agreement Objectives ........................................................................                          6


   Recommendations ......................................................................................................              6


   Agency and Recipient Comments .............................................................................                         7


   Ollie Green & Company Response ............................................................................                         7



   Appendices 


         A     IDEQ’s Response to the Draft Report ..........................................................                          9

                                  Introduction 

Purpose
            The purpose of our audit was to determine whether the Idaho Department of
            Environmental Quality (IDEQ) procurements and the use of force account under
            Cooperative Agreement (CA) 2S-96099601complied with Title 40 Code of
            Federal Regulations (CFR) Part 35, Subpart O, requirements. The purpose also
            included determining whether the objectives of the CA were met.

Background
            IDEQ was awarded CA No. 2S-96099601for $15 million by U.S. Environmental
            Protection Agency (EPA) on July 2, 2009, to remediate 450-500 lead-
            contaminated properties at the Bunker Hill Superfund site. The CA was later
            amended (Amendment No. 3) on December 10, 2009, to increase the amount to
            $16,800,000. This project was funded at 100 percent by the ARRA with no state
            match requirement. The period of performance was from July 2, 2009, through
            June 30, 2012. Funding for this CA was part of the $600 million Superfund
            hazardous site cleanup funded by ARRA.

Scope and Methodology

            Our ARRA performance audit covered the period from July 2, 2009, through June
            30, 2012. We conducted our fieldwork at IDEQ in Boise, Idaho from May 14 to
            May 18, 2012, and from June 18 to June 20, 2012. The scope of our audit was
            limited to determining whether:

                  IDEQ’s procurements under the CA were conducted in accordance with
                   Title 40 CFR Part 35, Subpart O;
                  IDEQ’s force account complied with Title 40 CFR Part 35, Subpart O; and
                  The objectives of the CA were met.

            Our scope included the review of IDEQ’s procurement processes and controls
            related to ARRA CA transactions. Our work included reviewing IDEQ’s
            solicitation, evaluation, tabulation and award processes related to CA 2S-
            96099601 procurements. Because IDEQ utilized two contractors already under
            contract (awarded in July 2006) to conduct ARRA CA remediation work, we
            extended our audit scope to include Year 2006 procurement of the two
            contractors. IDEQ provided all Year 2006 procurement information requested
            except detailed tabulation support documentation. IDEQ provided a summary
            tabulation sheet and indicated that the detailed documentation supporting the
            tabulations had been destroyed. Our scope for the extended period was limited
            accordingly.


13-R-0206                                                                                   1
            Our audit methodology included conducting structured interviews and discussions
            with officials at IDEQ and OIG to gain an understanding about the internal
            controls, processes, systems and procedures used to capture measure and report
            IDEQ’s procurements and force account activity and how IDEQ met the
            objectives of the CA.

            We requested, received and reviewed documentation from IDEQ to assess
            IDEQ’s procurement processes, force account activity and internal controls over
            procurements. This documentation included the State’s procurement policies and
            procedures and a written description of the internal controls that were in place
            during the audit period designed to detect and/or prevent potential errors related to
            the procurement process. We also requested, received and reviewed property files
            and other documentation required to verify that the program objectives were met.
            We used a judgmental sampling approach to select 10 properties to verify that all
            remediation work was completed in accordance with the requirements of the CA.

            A performance audit includes gaining an understanding of internal controls
            considered significant to the audit objectives, testing controls, and testing
            compliance with significant laws, regulations and other requirements. For this
            engagement, we obtained an understanding of IDEQ’s procurement processes and
            internal controls. The testing of internal controls over this process was not
            determined to be significant to our audit objectives.

            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provided a reasonable basis for our findings and
            conclusions based on our audit objectives.




13-R-0206                                                                                      2
                            Results of the Audit 

Procurement

            Generally we found that IDEQ complied with Idaho’s State procurement policies
            and procedures as required by Title 40 CFR 31.36 (a). We also found substantial
            compliance with 40 CFR Part 35 Subpart O. However, we found that IDEQ did
            not require its contractors to include Certification of Independent Price
            Determination (CPID) language in their bid proposals as required by Title 40 CFR
            35.6550 (b) (3). Our audit also found that IDEQ did not require its contractors to
            have accident and catastrophic loss insurance coverage as required by Title 40
            CFR 35.6590 (b). Finally, we found that IDEQ did not require its contractors to
            retain its records for 10 years after submitting its final Federal Financial Status
            report as required by Title 40 CFR 35.6705. See Table 1 below.



              Table 1: IDEQ’s Compliance With Title 40 CFR Part 35, Subpart O
                                                                                    Number
                      CFR Number                         CFR Title                     of
                                                                                    Findings
              40 CFR 31.36 (a)                  State Procurement Policies
              40 CFR 31.36 (j)                   Payments to Consultants
              40 CFR 35.6500                       Use of Force Account
              40 CFR 35.6550 (a)(5)                Selection Procedures
              40 CFR 35.6550 (a) (9           Intergovernmental Agreements
              40 CFR 35.6550 (b)                   Contractor Standards                  1
              40 CFR 35.6555 (c)                   Written Specifications
              40 CFR 35.6565 (b)-(d)               Procurement Methods
              40 CFR 35.6570                       Use of Same Engineer
              40 CFR 35.6575                  Restrictions on Contract Types
              40 CFR 35.6590(b)              Accident/Catastrophic Insurance             1
              40 CFR 35.6600                         Contractor Claims
              40 CFR 35.6705                        Records Retention                    1


              Total                                                                      3

            As illustrated in Table 1 above, we found three findings related to IDEQ’s
            compliance with 40 CFR Part 35 Subpart O. Our findings are summarized below.




13-R-0206                                                                                     3
            IDEQ Did Not Require Contractors to Include Certification of
            Independent Price Determination Language in Their Bid Proposals

            IDEQ did not require its contractors to include CIPD language in their bid
            proposals. Our audit found that IDEQ’s two prime contractors utilized to conduct
            ARRA remediation work did not have CIPD language in their bid proposals as
            required by 40 CFR 35.6550(b) (3). Title 40 CFR 35.6550(b) (3) states that the
            recipient must require that each contractor include in its bid or proposal a
            certification of independent price determination. This document certifies that no
            collusion, as defined by Federal and State antitrust laws, occurred during bid
            preparation.

            In conducting our work, we found that IDEQ contracted with United Mine
            Services, Inc and Ferguson Contracting, Inc. to conduct the ARRA CA
            remediation work. We found that these two contractors had held contracts with
            IDEQ since June 2006 and July 2006 respectively and their contracts were due to
            expire in November 2009 and December 2009 respectively. The initial ARRA CA
            remediation work was conducted by these two contractors from July 2, 2009 (CA
            award date) through December 31, 2009.

            On February 1, 2010, IDEQ solicited bid proposals from qualified contractors to
            continue the ARRA remediation work required by CA 2S-96099601. Six bid
            proposals were received and the two incumbent contractors were awarded new
            contracts to continue the ARRA remediation work. The effective date of their
            new contracts was April 19, 2010. Our review of the six bid proposals found that
            none included the CIPD language required by 40 CFR 35.6550(b) (3).

            Our review of IDEQ’s Purchasing Policies and Procedures Manual issued July 1,
            2000, and revised on January 18, 2012 found no requirement for IDEQ to comply
            with Title 40 CFR 35.6550(b) (3). The IDEQ financial officer indicated that
            IDEQ erred in not requiring CIPD language in the bid proposals. He also
            indicated that IDEQ has developed approved CIPD language and will add this
            language to all future bid proposal requirements.

            As a result of this departure from 40 CFR 35.6550(b) (3), IDEQ had no
            assurances that bid prices submitted by the contractors were independently
            determined.


            IDEQ Contracts Did Not Require A 10 Year Records Retention Period

            IDEQ did not specify a 10-year records retention period in its contracts as
            required by Title 40 CFR 35.6705. Our audit found that IDEQ’s contracts


13-R-0206                                                                                   4
            specified a 3 year records retention period. Title 40 CFR 35.6705 requires
            contractors to retain records for 10 years after submitting its final Federal
            Financial Status report unless otherwise directed by the EPA award official.
            Our work included requesting copies of the two contracts awarded to the
            contractors conducting the ARRA lead contamination remediation work required
            by CA No. 2S-96099601 at the Bunker Hill Superfund site. Upon conducting our
            review of these contracts, we found that both contracts specified only a 3 year
            records retention period.

            Our review of IDEQ’s Purchasing Policies and Procedures Manual issued July 1,
            2000, and revised on January 18, 2012 found no requirement for IDEQ to comply
            with Title 40 CFR 35.6705. IDEQ indicated that the Department’s records
            retention period is 33 years. However, due to an oversight, this information was
            not conveyed to the contractors. IDEQ indicated that it will establish language in
            future contracts stating these retention periods and will require contractors to
            retain records for the prescribed periods.

            As a result of the 3 year records retention period specified in IDEQ’s contracts,
            IDEQ’s contractors are currently required to retain records related to the CA for
            only 3 years.


            IDEQ Did Not Require Its Contractors to Have Accident and
            Catastrophic Loss Insurance Coverage

            Our audit found that IDEQ did not require it contractors to have accident and
            catastrophic loss insurance coverage as required by Title 40 CFR 35.6590 (b). To
            conduct our work, we requested and received the insurance requirements and
            coverage amounts for IDEQ contractors conducting the lead contamination
            remediation work at the Bunker Hill Superfund site.

            Our review of IDEQ’s Purchasing Policies and Procedures Manual issued July 1,
            2000, and revised on January 18, 2012 found no requirement for IDEQ to comply
            with Title 40 CFR 35.6590 (b). We found that IDEQ required its contractors to
            have the following insurance coverage:

                   Idaho Worker’s Compensation Insurance (minimum $100,000);
                   Comprehensive General Liability (minimum $1,000,000 per occurrence);
                   Automobile Liability Insurance (no less than $1,000,000).

            IDEQ’s financial officer indicated that the Department feels that it has met the
            requirements of Title 40 CFR 35.6590 (b). He indicated that if the Department
            has not met the requirement, it would have been an oversight and
            misinterpretation of the regulation. Finally, he indicated that all future contracts
            will have that requirement added if determined necessary. Title 40 CFR 35.6590
            (b) states that the recipient must require the contractor to provide insurance


13-R-0206                                                                                          5
            against accidents and catastrophic loss to manage any risk inherent in completing
            the project.

            This departure from Title 40 CFR 35.6590 (b) put IDEQ at risk that the contract
            work may not be completed by the contractor due to accident or catastrophic loss.

Force Account Activity

            Title 40 CFR 35.6500 (a) defines Force Account work as the use of the recipient’s
            own employees or equipment for construction, construction-related activities
            (including architecture and engineering services), or repair or improvement to a
            facility. Our audit found that IDEQ had no Force Account activity related to the
            CA.

Cooperative Agreement Objectives

            The EPA awarded CA No. 2S-96099601 to IDEQ on 2 July 2009. The purpose of
            the CA was to provide federal assistance in the amount of $16,800,000 for
            remediation of 450-500 lead-contaminated properties at the Bunker Hill
            Superfund site. Our audit found that IDEQ completed the remediation of 480 lead
            contaminated properties in accordance with requirements of the CA.

Recommendations:

            We recommend that the Regional Administrator, Region 10:

               1.		 Require IDEQ to review and gain an understanding of the requirements of
                    40 CFR 35.6550(b) (3) and ensure that all current and future bid proposals
                    contain CIPD language.

               2.		 Require IDEQ to ensure that all contracts issued under this CA include the
                    10 year record retention period as required by Title 40 CFR 35.6705.

               3.		 Require IDEQ to ensure that current and future contractors are covered by
                    accident and catastrophic loss insurance as required by Title 40 CFR
                    35.6590 (b).

               4.		 Require IDEQ to update its policies and procedures to ensure that they
                    address:
                       a.		 Bid proposal certification of independent price determination
                            language as required by 40 CFR 35.6550(b) (3).
                       b.		 10 year record retention period as required by Title 40 CFR
                            35.6705.
                       c.		 Accident and catastrophic loss insurance as required by Title 40
                            CFR 35.6590 (b).



13-R-0206                                                                                       6
Agency and Recipient Comments

Ollie Green & Company issued a draft report on August 23, 2012 and provided copies to IDEQ,
Region 10 and OIG. In response to the draft report, we received written comments from IDEQ
on September 17, 2012. IDEQ agreed with 3 of the 4 findings cited but did not address the
recommendations in its response. Region 10 provided its written response to the draft report on
September 11, 2012 stating that it had no objections to the findings, and agrees that IDEQ needs
to address the recommendations presented in the draft report. We conducted the final exit
conference on September 19, 2012 via teleconference with IDEQ, Region 10 and OIG to obtain
verbal comments to the draft report.

IDEQ agreed with finding 1 (IDEQ Did Not Require Contractors to Include Certification of
Independent Price Determination Language in Their Bid Proposals) in its written response and
specified the language proposed for its Request for Proposals (RFP), Contracts and Contracts
Manual. IDEQ agreed with finding 2 (IDEQ Contracts Did Not Require A 10 Year Records
Retention Period) and said that it had incorporated the required 10 year retention language in its
standard RFQ, Contracts and Contracts Manual. IDEQ also agreed with finding 3 (IDEQ Did
Not Require Its Contractors to Have Accident and Catastrophic Loss Insurance Coverage) and
said that it would require contractors to have the Accident and Catastrophic Insurance Coverage
required by Title 40 CFR 35.6590b. IDEQ said that its insurance carrier was not able to identify
the type of insurance required by Title 40 CFR 35.6590b and requested additional clarification
about the type of insurance required. Region 10 officials indicated that the required coverage
may be contained within the contractor’s General Liability Package but would research further
and provide an answer as soon as possible. IDEQ, Region 10 and OIG agreed with the
recommendations made for findings 1, 2, and 3.

IDEQ disagreed with finding number 4 (IDEQ Did Not Sign-Off on Three Pavement Projects
Invoiced by Contractors). IDEQ agreed that the asphalt work was not included on the internal
checklist used during the audit, but said that there were other checks and balances in place to
ensure that the asphalt work had been done and properly inspected before payment was made.
IDEQ also indicated that the checklist used to ensure work had been inspected and signed off on
had been revised to include asphalt work. Based on IDEQ’s written and verbal response, OIG
recommended that finding 4 be taken out of the report. Ollie Green and Company concurred
with this recommendation and removed finding 4 from the draft report.


Ollie Green & Company Response
IDEQ’s written and verbal responses to findings 1, 3, 4, show that IDEQ has taken the
appropriate actions to address the recommendations. The response provided for finding 1 show
that IDEQ’s proposed language for RFPs, Contracts and Contract Manual satisfies the
Independent Price Determination Language requirement. Therefore recommendation 1 is closed.
The response provided for finding 2 shows that IDEQ has revised its RFQs, Contracts and
Contracts Manual to incorporate the 10 year retention requirement. However, this
recommendation remains open as IDEQ did not modify the current contracts to include the
required 10 year retention period. The response provided for finding 3 shows that IDEQ is


13-R-0206                                                                                          7
making an effort to identify the Accident and Catastrophic Insurance Coverage required by Title
40 CFR 35.6590b. Region 10 has agreed to research this matter further and to provide guidance
to IDEQ. Therefore, recommendation 3 remains open. IDEQ disagreed with finding 4 and
provided other evidence that indicated that the work had been done properly and that other
checks and balances were in place to ensure that asphalt work had been inspected and signed off
on. Based on this information and OIG’s recommendation, finding 4 was taken out of the report.
Therefore recommendation 4 is closed. IDEQ has agreed to update its RFQs, Contracts and
Contracts Manual to include language to ensure that the requirements of recommendations 5a
and 5b were included. However, IDEQ did not address the requirements of recommendation 5c
in its response. Therefore recommendations 5a and 5b are closed and 5c remains open. We
agree with IDEQ’s initial corrective actions to address the requirements of recommendations 1,
3, 4,5a and 5b cited in the draft report. IDEQ will need to include its proposed corrective action
plan in its response to the final report.




13-R-0206                                                                                        8
Appendix – A - IDEQ Response to Draft Report
September 17, 2012

Ollie Green, MBA CPA, Managing Partner
Ollie Green & Company, CPA’s
1300 South Fourth St, STE 100
Louisville, KY 40208

Re: Recovery Act audit of EPA Cooperative Agreement No. 26-96099601

Dear Mr. Green:

The Idaho Department of Environmental Quality (DEQ) accepts the “Draft” audit report sent to us on
August 23, 2012, and offers the following responses to the findings identified within the report.

Finding – IDEQ Did Not Require Contractors to Include Certification of Independent Price
Determination Language in Their Bid Proposals

DEQ agrees with the finding and has incorporated the following language into its standard RFP, Contracts
and Contracts Manual:

The offeror certifies that:

    1.	 The prices in this offer have been arrived at independently, without, for the purpose of restricting
        competition, any consultation, communication, or agreement with any other offeror or competitor
        relating to:

        i.       Those prices,
        ii.      The intention to submit an offer, and
        iii.     The methods or factors used to calculate the prices offered.

    2.	 The prices in this offer have not been and will not be knowingly disclosed by the offeror, directly
        or indirectly, to any other offeror or competitor before bid opening (in the case of a sealed bid
        solicitation) or contract award (in the case of a negotiated solicitation) unless otherwise required
        by law; and,

    3.	 No attempt has been made or will be made by the offeror to induce any other concern to submit
        or not to submit an offer for the purpose of restricting competition.




13-R-0206                                                                                                  9
Finding – IDEQ Contracts Did Not Require A 10 Year Records Retention Period

DEQ agrees with the finding and has incorporated the following language into its standard RFP, Contracts
and Contracts Manual:

        The CONTRACTOR shall maintain books, records, documents and other evidence directly
        pertinent to performance of EPA funded work under this CONTRACT in accordance with
        generally accepted accounting principles and practices consistently applied, and in accordance
        with 40 CFR 31.36(i)(10) and (11), in effect on the date this CONTRACT is signed by both
        parties. Records shall be retained for a period of ten (10) years after final payment is made and
        all other pending matters are closed. If any litigation, claim, negotiation, audit or other action
        involving the records has been started before the expiration of the ten-year period, the records
        must be retained until completion of the actions and resolution of all issues which arise from it,
        or until the end of the regular ten-year period, whichever is later.

Finding – IDEQ Did Not Require Its Contractors to Have Accident and Catastrophic Loss Insurance
Coverage

DEQ agrees with the finding and will require Accident and Catastrophic Insurance Coverage, as and when
required by Title 40 CFR 35.6590 (b).

Finding – IDEQ Did Not Sign-Off On Three Pavement (Asphalt) Projects Invoiced by Contractors

DEQ disagrees with the finding. While initially the asphalt work was not included on the DEQ’s internal
checklist, the work was reviewed and approved prior to payment. In addition, DEQ does confirm
completion of all asphalt work in the final record drawing that is completed for each property. While Title
40 CFR Part 31.36 (a) (2) requires grantees and sub-grantees to maintain a contract administration system
which ensures that contractors perform in accordance with terms, conditions and specifications of their
contracts or purchase orders, it does not define specifically how that is to be done. DEQ feels that in this
situation, the level of oversight and approval process more than adequately meets the requirement.
Finally, DEQ has revised the property file check list to include a line item for asphalt which is the form of
pavement used at the site.

If you or your staff has any further questions, please contact Dave Sande, CPA, Financial Officer.

Sincerely,



Curt A. Fransen
Director

c: Dave Sande, DEQ-Fiscal Office




13-R-0206                                                                                                 10
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1      Action Official           Date      Amount      Amount

     1        6     Require IDEQ to review and gain an understanding         C       Regional Administrator,
                    of the requirements of 40 CFR 35.6550(b) (3) and                       Region 10
                    ensure that all current and future bid proposals
                    contain CIPD language.

     2        6     Require IDEQ to ensure that all contracts issued         O       Regional Administrator,
                    under this CA include the 10 year record retention                     Region 10
                    period as required by Title 40 CFR 35.6705.

     3        6     Require IDEQ to ensure that current and future           O       Regional Administrator,
                    contractors are covered by accident and                                Region 10
                    catastrophic loss insurance as required by Title 40
                    CFR 35.6590 (b).

     4        6     Require IDEQ to update its policies and procedures       O       Regional Administrator,
                    to ensure that they address:                                           Region 10
                      a. Bid proposal certification of independent price
                         determination language as required by
                         40 CFR 35.6550(b) (3).
                      b. 10 year record retention period as required
                         by Title 40 CFR 35.6705.
                      c. Accident and catastrophic loss insurance as
                         required by Title 40 CFR 35.6590 (b).




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-R-0206
	
                                   Distribution
Regional Administrator, Region 10
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Director, Grants and Interagency Agreements Management Division
Audit Follow-Up Coordinator, Region 10
Audit Follow-Up Coordinator, Office of Grants and Debarment
Director, Idaho Department of Environmental Quality




13-R-0206
	
